App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------

ROBERT KENNEY, individually
and on behalf of all others
similarly situated,
Plaintiff-Appellee,

No. 18-1105

v.
HELIX TCS, INC.,
Defendant-Appellant
-------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:17-CV-01755-CMA-KMT)
-------------------------------------------------------------------------------------------------------------

(Filed Sep. 20, 2019)
Jordan D. Factor, (Jeremy T. Jonsen and Carissa V.
Sears, with him on the briefs) Allen Vellone Wolf
Helfrich & Factor, P.C., Denver, Colorado, for DefendantAppellant.
Lyndsay R. Itkin, (Michael Andrew Josephson, with
her on the brief ) Josephson Dunlap Law Firm, Houston, Texas for Plaintiff-Appellee.
-------------------------------------------------------------------------------------------------------------

App. 2
Before HARTZ, SEYMOUR, and EID, Circuit Judges.
-------------------------------------------------------------------------------------------------------------

SEYMOUR, Circuit Judge.
-------------------------------------------------------------------------------------------------------------

Plaintiff Robert Kenney is a former employee of
Defendant Helix TCS, Inc. (“Helix”), which provides security services for businesses in Colorado’s statesanctioned marijuana industry. Mr. Kenney filed this
lawsuit against Helix under the Fair Labor Standards
Act (“FLSA”), 29 U.S.C. §§ 201–219, alleging that Helix
misclassified him and similarly situated workers as exempt from the FLSA’s overtime obligations. Helix
moved to dismiss Mr. Kenney’s claim based on the Controlled Substance Act (“CSA”), 21 U.S.C. §801, et seq,
arguing that Mr. Kenney’s employment activities are
in violation of the CSA and are thus not entitled to
FLSA protections. The district court denied Helix’s motion to dismiss. We affirm.
I.
Between approximately February 2016 and April
2017, Mr. Kenney worked as a security guard for Helix.
Mr. Kenney alleges that he and other similarly situated security guards regularly worked more than forty
hours per week. Nevertheless, Helix classified these
workers as exempt employees under the FLSA and
paid them a salary instead of overtime. Mr. Kenney initiated this action against Helix under the collective
action provisions of the FLSA, see 29 U.S.C. § 216(b),

App. 3
contending that Helix misclassified the security
guards as exempt employees even though they frequently performed non-exempt job duties. He claims
Helix is in violation of 29 U.S.C. § 207(a) by willfully
failing to pay overtime.
Helix provides security, inventory control, and
compliance services to the marijuana industry in Colorado. Kenney v. Helix TCS, Inc., 284 F. Supp. 3d 1186,
1188 (D. Colo. 2018). Mr. Kenney’s job duties at Helix
included monitoring security cameras, patrolling assigned locations, investigating and documenting all
facility-related incidents, and enforcing client, local,
state, and federal policies and regulations. Id. Helix asserts that the FLSA does not apply to workers such as
Mr. Kenney because Colorado’s recreational marijuana
industry is in violation of the Controlled Substances
Act. It therefore moved to dismiss Mr. Kenney’s FLSA
claim for want of jurisdiction under Rule 12(b)(1) of the
Federal Rules of Civil Procedure or, alternatively, under Rule 12(b)(6) for failure to state a claim.
The district court denied Helix’s motion to dismiss
and then certified Helix’s interlocutory appeal of its order. Exercising jurisdiction pursuant to 28 U.S.C.
§ 1292(b), we affirm.
II.
Both parties agree that we review de novo the district court’s denial of Helix’s motions to dismiss. A Rule
12(b)(1) motion to dismiss only requires the court to
determine whether it has authority to adjudicate the

App. 4
matter. Helix argued below that the district court
lacked subject matter jurisdiction because there is no
federal interest at stake. The district court correctly rejected this argument, identifying it as a challenge to
the legal sufficiency of Mr. Kenney’s claims rather than
the jurisdiction of the federal courts. Kenney, 284
F. Supp. 3d at 1189 (citing Arbaugh v. Y & H Corp., 546
U.S. 500, 516 (2006) (holding statute’s definitional requirement of who qualifies as employer “is an element
of a plaintiff ’s claim for relief, not a jurisdictional issue”)). Helix only cursorily mentioned this argument
in its opening brief and dropped the issue entirely in
its reply brief.
A Rule 12(b)(6) motion to dismiss requires the
court to evaluate the sufficiency of the plaintiff ’s allegations. “At this stage in the litigation, we accept as
true the well pleaded factual allegations and then determine if the plaintiff has provided enough facts to
state a claim to relief that is plausible on its face.” Hogan v. Winder, 762 F.3d 1096, 1104 (10th Cir. 2014) (internal citation and quotation marks omitted). “A claim
has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009).
III.
Whether § 207(a) of the FLSA applies to Mr. Kenney is an issue of statutory interpretation, which

App. 5
always begins with the plain language of the statute.
See, e.g., Artis v. D.C., 138 S. Ct. 594, 603 (2018). To
state a claim for a violation of this FLSA provision, a
plaintiff merely must show that he is an employee who
(a) worked more than forty hours per week, and (b) is
either “engaged in commerce or in the production of
goods for commerce” or “employed in an enterprise engaged in commerce or in the production of goods for
commerce.” 29 U.S.C. § 207(a)(1). The statute then enumerates certain categories of employees that are explicitly exempted from FLSA protections, regardless of
whether they meet these requirements. The employer
bears the burden to prove that an exemption under the
FLSA applies to the plaintiff. See, e.g., Lederman v.
Frontier Fire Protection Inc., 685 F. 3d 1151, 1157–58
(10th Cir. 2012). Our case law confirms that FLSA protections apply unless an establishment fits “plainly
and unmistakably within the terms and the spirit of
the exemption invoked.” Schoenhals v. Cockrum, 647
F.2d 1080, 1081 (10th Cir. 1981).
Helix does not dispute the fact that Mr. Kenney is
an employee who worked more than forty hours per
week, and Mr. Kenney has clearly alleged that he is
covered by the plain language of the FLSA.1 Nor does
1

Helix does contest the allegation that it engages in commerce within the meaning of the FLSA, see generally 29 U.S.C.
§ 203(b) (“ ‘Commerce’ means trade, commerce, transportation,
transmission, or communication among the several States or between any State and any place outside thereof.”), arguing for the
first time on appeal that Colorado’s marijuana industry is only
authorized within the state’s borders. But Helix has waived this
argument by raising it for the first time on appeal. See Hormel v.

App. 6
Helix argue that Mr. Kenney fits into one of the FLSA’s
enumerated categories of excluded employees. As the
Supreme Court has long emphasized, where the statute’s language is plain the sole function of the courts is
to enforce it according to its terms. Lucas v. Jerusalem
Café, LLC., 721 F.3d 927, 934 (8th Cir. 2013) (citing
United States v. Ron Pair Enters., Inc., 489 U.S. 235,
241 (1989)). So Helix’s challenge “must fail unless [it]
can point to a different statutory basis for limiting ‘the
broadest definition that has ever been included in any
one act.’ ” Lucas, 721 F.3d at 934 (quoting 81 Cong. Rec.
7656–57 (1937) (statement of Sen. Black)).2
Although Helix sidesteps the disfavored phrase
“implied repeal” and claims to merely be reading the
statutes in harmony with each other, in effect it proposes that we interpret the CSA as implicitly repealing
the FLSA’s overtime mandate for employers in the marijuana industry. See Epic Systems Corp v. Lewis, 138
S. Ct. 1612, 1623–24 (2018). Construing this as Helix’s
true argument is particularly accurate in light of
Helvering, 312 U.S. 552, 556 (1941); Tele-Communications, Inc. v.
Commissioner of Internal Revenue, 12 F.3d 1005, 1007 (10th Cir.
1993).
2
Helix develops several lines of argument that do not bear
on the resolution of this appeal. Helix frames the issue as one of
preemption by setting state-sanctioned marijuana use in opposition to the CSA, lengthily addresses federal enforcement of the
CSA with respect to marijuana offenses, and examines state court
treatment of employment protections in the context of marijuana
use. None of these arguments pertain to the present case, which
concerns not the federal legality of marijuana but the interaction
between two federal laws and the resultant application of the
FLSA to the plaintiffs here.

App. 7
marijuana’s history as a legal industry. See, e.g., Marihuana Tax Act, 50 Stat. 551 (repealed 1970) (regulating all persons dealing with marijuana, including
companies and corporations); see also Raich, 545 U.S.
at 11 (explaining history of marijuana regulation).
Prior to enactment of the CSA in 1970, the FLSA unquestionably covered these workers. The Supreme
Court recently reiterated that an implied repeal argument “faces a stout uphill climb.” Epic Systems, 138
S. Ct. at 1624. We approach these arguments with a
“strong presumption that repeals by implication are
disfavored and that Congress will specifically address
preexisting law when it wishes to suspend its normal
operations in a later statute.” Id. (citation, quotation
marks, and brackets omitted). And, as Helix itself declares, Congress is presumed to know the law when
legislating. Aplt. Br. at 19; see also In re Harline, 950
F.2d 669, 675 (10th Cir. 1991).
Helix argues that inclusion of Mr. Kenney under
the FLSA is an overly technical reading of the statute,
and that legislative intent with respect to this issue
must be inferred from the distinctive purposes of the
FLSA and the CSA as the two statutes in question. Helix contrasts the purpose of the FLSA, which it identifies as ensuring “the free flow of goods in commerce”
and “the orderly and fair marketing of goods in commerce,” Aplt. Br. at 20 (citing 29 U.S.C. § 202), from the
purpose of the later-enacted CSA, which it describes as
“eliminat[ing] commercial transactions of marijuana
in the interstate market in their entirety.” Id. (citing
Raich, 545 U.S. at 20) (brackets omitted). Helix then

App. 8
asserts that Mr. Kenney’s interpretation of the FLSA
would “create a clear repugnancy” between it and the
CSA and impermissibly render the two laws mutually
inconsistent. Aplt. Br. at 21. “Extending overtime benefits in this case would require the Court to find that
Congress intended to both forbid (under the CSA) and
reward (under the FLSA) the same conduct: drug trafficking.” Id.
As outlined below, however, “case law is clear that
employers are not excused from complying with federal laws” because of their other federal violations.
Kenney, 284 F. Supp. 3d at 1190; accord United States
v. Sullivan, 274 U.S. 259 (1927) (holding there was no
reason “why the fact that a business is unlawful should
exempt it from paying the taxes that if lawful it would
have to pay”); Lucas, 721 F.3d at 934 (“The employers’
argument to the contrary rests on a legal theory as
flawed today as it was in 1931 when jurors convicted
Al Capone of failing to pay taxes on illicit income.”).
Contrary to Helix’s claims, recognizing Mr. Kenney as
covered by the FLSA is in line with both the plain reading and the overall purposes of that statute, and doing
so does not require disavowal of the CSA.
As we recognized in Baker v. Flint Engineering &
Const. Co., 137 F.3d 1436, 1440 (10th Cir. 1998), the
Supreme Court has emphasized the “striking breadth”
of the FLSA’s definition of employee, which is purposefully expansive to maximize the full reach of the Act,
see United States v. Rosenwasser, 323 U.S. 360, 363
(1945). Congress has shown that it knows how to limit
this broad definition of employee when it intends to do

App. 9
so, and it did not do so here. See 29 U.S.C. § 203(e); see
also Lucas, 721 F.3d at 934 (applying FLSA to unauthorized immigrants). Congress has actually amended
the FLSA many times since the enactment of the CSA
without excluding employees working in the marijuana industry, despite specifically exempting other categories of workers. See 29 U.S.C. § 213. The Supreme
Court has held that the FLSA’s “specificity in stating
exemptions strengthens the implication that employees not thus exempted . . . remain within the Act.” Powell v. United States Cartridge Co., 339 U.S. 497, 516–17
(1950); accord Citicorp Indus. Credit, Inc. v. Brock, 483
U.S. 27, 35 (1987) (“[W]here the FLSA provides exemptions ‘in detail and with particularity,’ we have found
this to preclude ‘enlargement by implication.’ ”) Deherrera v. Decker Truck Line, Inc., 820 F.3d 1147, 1154
(10th Cir. 2016) (“Because FLSA exemptions are narrowly construed against . . . employers, in considering
an FLSA exemption, a court must find that the claimed
exemption falls plainly and unmistakably within the
terms of the statute.”) (internal citations and quotation
marks omitted).
Moreover, the purposes of the FLSA do not conflict
with the CSA quite as directly as Helix implies. Helix
cherry-picks among the enumerated purposes of the
FLSA, citing only those most favorable to its arguments. But the FLSA was also enacted to promote “the
health, efficiency, and general well-being of workers”
and to prevent unfair competition. 29 U.S.C. § 202; see
also Brock, 483 U.S. at 36–37 (clarifying that FLSA
contains more than one goal, including “Congress’

App. 10
desire to eliminate the competitive advantage enjoyed
by goods produced under substandard conditions”).
The FLSA is a remedial scheme for the benefit of all
workers. Anderson v. Mt. Clemens Pottery Co., 328 U.S.
680, 687 (1946); see also Lamon v. City of Shawnee,
Kan., 972 F.2d 1145, 1149 (10th Cir. 1992). Applying
the FLSA to workers such as Mr. Kenney does not conflict with these enumerated FLSA purposes.
Helix counters that “Congress did not seek to level
the same playing field that it tried to demolish.” Aplt.
Reply Br. at 5. But adhering to the plain language of
the statute here does not level the playing field within
the illicit marijuana market but rather beyond it, preventing these unlawful businesses from procuring an
unfair advantage over all other legitimate employers
who are required to comply with federal overtime laws.
Indeed, applying FLSA protections to workers such as
Mr. Kenney will not grant these individuals any surplus benefit that they cannot easily obtain elsewhere,
but the reverse would excuse Helix from FLSA costs
and obligations and thereby allow it to reap additional
benefit from its CSA violations. Denying FLSA protection to workers in the marijuana industry would consequently encourage employers to engage in illegal
markets where they are subject to fewer requirements.
But together the FLSA and CSA discourage businesses from participating in the marijuana industry
by alternatively subjecting them to federal labor obligations and imposing criminal sanctions.3 Accordingly,
3

Helix’s opening brief cites a variety of jurisprudential arenas as supporting the contention that federal courts “consistently

App. 11
accepting the plain language interpretation that Mr.
Kenney and similarly situated employees are covered
by the FLSA promotes the legislature’s intent in enacting the statute. See Brock, 483 U.S. at 35–36 (“Petitioner urges us to look beyond the plain language of
the statute. . . . However, we conclude that the legislative intent fully supports the result achieved by application of the plain language.”).
The district court correctly reasoned and case law
has repeatedly confirmed that employers are not excused from complying with federal laws just because
decline to reward participation in the marijuana industry.” Aplt.
Br. at 10. The only context Helix continued to argue through oral
argument is the Trademark Act. Beyond noting that Mr. Kinney
convincingly distinguishes each of the contexts and relevant authorities that Helix cites, we will similarly restrict our analysis.
A trademark qualifies for registration and its associated benefits
if the trademark owner has “used [the mark] in commerce” or has
a bona fide intent to do so, 15 U.S.C. § 105, and courts have long
held that the commerce must be “lawful” for it to satisfy the “use
in commerce” requirement. See, e.g., United Phosphorus, Ltd. v.
Midland Fumigant, Inc., 205 F.3d 1219, 1225 (10th Cir. 2000).
Helix urges us to adopt a similar interpretation for the FLSA. Although the Trademark Act and FLSA both regulate interstate
commerce, however, they function in fundamentally different
ways. The Trademark Act confers a benefit on owners who register their marks, securing a registrant’s right to benefit from a
good reputation and thus protecting him from unfair competition.
See Matal v. Tam, 137 S. Ct. 1744, 1752–53 (2017). The FLSA, in
contrast, prevents unfair competition, not by conferring a benefit
on certain actors but by imposing obligations across the labor
market. Reading “lawful” into the threshold commerce requirement here would not further the statute’s purposes by denying
illegal businesses a benefit, as in the trademark context, but
would thwart the FLSA’s goals by exempting illicit markets from
costs imposed on lawful employers.

App. 12
their business practices are federally prohibited. See,
e.g., Sullivan, 274 U.S. at 263; see also Greenwood v.
Green Leaf Lab LLC, 2017 WL 3391671 at *3 (D. Or.
July 13, 2017), adopted by district court, 2017 WL
3391671 (D. Or. Aug. 7, 2017) (“[J]ust because an Employer is violating one federal law, does not give it license to violate another.”) (internal citation omitted).
This has been true with respect to the FLSA in multiple contexts, strengthening the conclusion that it remains true in this novel context of the marijuana
industry. See Donovan v. Burgett Greenhouses, Inc., 759
F.2d 1483, 1485 (10th Cir. 1985); Bustamente, 2018 WL
2349507 at *1 (workers in an illegal gambling operation).4 Persuasive case law endorses the concept that
the FLSA is focused on regulating the activity of businesses, in part on behalf of the individual workers’
wellbeing, rather than regulating the legality of individual workers’ activities. See, e.g., Haro v. City of Los
Angeles, 745 F.3d 1249, 1256 (9th Cir. 2014). (“The
FLSA is to be construed liberally in favor of employees;
exemptions are narrowly construed against employers.”).

4

Helix attempts to distinguish these cases on the basis that
those employees were engaging in entirely lawful commercial activities, whereas the employees here are engaged in activities that
violate the CSA. This argument is not convincing. The illegal nature of the gambling activity in Bustamente was directly acknowledged by the court in a footnote, and the innocuous nature of the
work being performed by undocumented immigrants in the other
cases discussed does not offset their active violations of federal
law in obtaining work.

App. 13
Notably, Helix failed entirely to address the Oregon district court case that was cited here by both the
district court and Mr. Kenney and is directly on-point.
Greenwood, 2017 WL 3391671. The district court in
Greenwood relied on a legal advice memo written for
the National Labor Relations Board to conclude that
any possible violations of the CSA are not relevant to
whether the FLSA’s protections apply to workers in the
marijuana industry. Id. at *2–3. Considering arguments nearly identical to those made by Helix here, the
court in Greenwood denied defendant’s motion to dismiss. See, e.g., id. at *3 (“I conclude that any possible
violations of the Controlled Substances Act are not relevant to whether the FLSA’s protections apply to
Plaintiff. . . . There is no inherent conflict between the
FLSA’s requirements and the Controlled Substances
Act’s prohibition of marijuana.”).
Like the district court in Greenwood, we are not
drawing any conclusions about the merits of Mr. Kenney’s FLSA claims. We hold only that Mr. Kenney and
similarly situated individuals are not categorically excluded from FLSA protections. Accordingly, we AFFIRM the district court’s denial of Helix’s motion to
dismiss.

App. 14
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------

HELIX TCS, INC.,
Petitioner,
No. 18-701
(D.C. No. 1:17-CV-01755ROBERT KENNEY,
CMA-KMT)
individually and on behalf
(D. Colo.)
of all others similarly
situated,
v.

Respondent.
-------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------

(Filed Mar. 12, 2018)
Before BRISCOE, HOLMES, and MCHUGH, Circuit
Judges.
-------------------------------------------------------------------------------------------------------------

This matter is before us on Helix TCS, Inc.’s Petition for Permission to Appeal Pursuant to 28 U.S.C.
§ 1292(b) and Rule 5 of the Federal Rules of Appellate
Procedure (“Petition”). We also have a response from
plaintiff/respondent, Robert Kenney. Upon careful consideration of the Petition, the response, and the relevant district court orders, the Petition is GRANTED.

App. 15
Within 14 days of the date of this order, Helix TCS,
Inc. shall pay the $505 filing and docketing fees to the
Clerk of the U.S. District Court for District of Colorado.
See Fed. R. App. P. 5(d)(1)(A). A notice of appeal is not
required; the date of this order shall serve as the date
of the notice of appeal. Id. at 5(d)(2). The Clerk of this
court shall open a new appeal once the district court
Clerk notifies this court that the fees have been paid.
Id. at 5(d)(3).
Entered for the Court,
ELISABETH A. SHUMAKER, Clerk
/s/ [Illegible]
by: Chris Wolpert
Chief Deputy Clerk

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 17-cv-01755-CMA-KMT
ROBERT KENNEY, individually and
on behalf of all others similarly situated,
Plaintiff,
v.
HELIX TCS, INC.,
Defendant.

ORDER GRANTING DEFENDANT’S
MOTION FOR CERTIFICATION OF APPEAL
OF THE COURT’S ORDER DENYING
DEFENDANT’S MOTION TO DISMISS
(Filed Jan. 23, 2018)
This matter is before the Court on Defendant Helix TCS, Inc.’s Motion for Certification of Appeal of the
Court’s Previous Order Denying Defendant’s Motion to
Dismiss (Doc. # 39). (Doc. # 43.)
I.

BACKGROUND

Defendant is in the business of providing security
and compliance services to the marijuana industry in
Colorado. (Doc. # 13 at 2.) Plaintiff Robert Kenney alleges that Defendant willfully failed to pay overtime

App. 17
wages to him and other security guards employed by
Defendant, and therefore brings a claim against Defendant under the Fair Labor Standards Act (the
“FLSA”), 29 U.S.C. §§ 201-19. (Doc. # 1.) The Court’s
Previous Order provides a detailed recitation of the
factual and procedural background of this case and is
incorporated herein. See (Doc. # 39.)
Defendant filed a Motion to Dismiss on September
13, 2017, asserting that the case must be dismissed for
want of jurisdiction pursuant to Federal Rule of Civil
Procedure 12(b)(1), or alternatively, for failing to state
a claim pursuant to Federal Rule of Civil Procedure
12(b)(6). (Doc. # 13.) Relevant here, Defendant argued
that the Court does not have jurisdiction over Plaintiff ’s FLSA claim because Plaintiff works in an industry wholly prohibited by federal law—the recreational
marijuana industry—and thus is not entitled to the
FLSA’s protections. (Id.)
This Court rejected Defendant’s argument and denied its Motion to Dismiss on January 5, 2018. (Doc. #
39.) The Court cited ample authority expressly rejecting Defendant’s theory of jurisdiction and concluded
that case law is clear that employers are not excused
from compliance with federal laws, including the
FLSA, solely because their business violates federal
law. (Id.)
On January 15, 2018, Defendant filed the Motion
for Certification of Appeal of the Court’s Previous Order Denying Defendant’s Motion to Dismiss now before
the Court. (Doc. # 43.) Defendant requests that the

App. 18
Court certify its previous Order Denying Defendant’s
Motion to Dismiss (Doc. # 39) for interlocutory review
pursuant to 28 U.S.C. § 1292(b) and proposes the following question: “Is Plaintiff, an employee working in
Colorado’s recreational marijuana industry, entitled
to the protections of the FLSA, notwithstanding that
his employment activities constitute federally criminal
conduct?”. (Id.)
On January 19, 2018, Defendant answered Plaintiff ’s Complaint and filed a Third Party Complaint
against Third Party Defendant HRBenefix CO, LLC.
(Doc. # 45.) This third party complaint does not bear on
the motion presently before the Court.
II.

ANALYSIS

An interlocutory order, generally not appealable,
may be appealed where the district court is “of the
opinion that such order involves a controlling question
of law as to which there is substantial ground for difference of opinion and that an immediate appeal from
the order may materially advance the ultimate termination of the litigation.” 28 U.S.C. § 1292(b). Where
the district court believes these three conditions are
satisfied,1 the court may certify “in writing” an order

1

“To certify an interlocutory appeal under § 1292(b) the district court must make an order, and must state three things in
the order: that it is ‘of the opinion’ that the order (1) ‘involves a
controlling question of law,’ (2) ‘as to which there is substantial
ground for difference of opinion,’ and (3) ‘that an immediate appeal may materially advance the ultimate termination of the

App. 19
for interlocutory appeal. Id. Section 1292(b) is to be
used “only in exceptional cases where an intermediate
appeal may avoid protracted and expensive litigation.”
Milbert v. Bison Lab., Inc., 260 F.2d 431, 433 (3rd Cir.
1958). Accordingly, the Court strictly construes and applies the three conditions precedent to the granting of
permission to appeal. Id. at 435; see 16 Charles Alan
Wright, et al., Federal Practice & Procedure § 3930 (3d
ed. 2017).
The Court is persuaded that the three conditions
precedent are satisfied with regard to the issue presented for appeal by Defendant. First, the Court’s conclusion that it has subject matter jurisdiction because
Plaintiff enjoys protections of the FLSA, despite working in the recreational marijuana industry, see (Doc. #
39 at 6), “involves a controlling question of law,” see 28
U.S.C. § 1292(b). A question of law is “controlling” “if its
resolution is quite likely to affect the further course of
the litigation, even if not certain to do so.” Sokaogon
Gaming Enter. Corp. v. Tushie-Montgomery Assoc., Inc.,
86 F.3d 656, 659 (7th Cir. 1996). The issue Defendant
intends to appeal is certainly controlling: whether an
employee is entitled to protections of the FLSA if he or
she is engaged in a business illegal under federal law
determines if Plaintiff has stated a claim sufficient to
survive Defendant’s Motion to Dismiss. See Klinghoffer
v. S.N.C. Achille Lauro Ed Altri-Gestione Motonave
Achille Lauro in Amministrazione Straordinaria, 921
F.2d 21, 24 (2d Cir. 1990) (where an appeal concerned
litigation.’ ” 16 Charles Alan Wright, et al., Federal Practice &
Procedure § 3930 (3d ed. 2017).

App. 20
the district court’s denial of a party’s motion to dismiss
for lack of subject matter jurisdiction, it was “apparent
that the . . . appeal [did[ involve a ‘controlling question
of law”).
Second, the Court is persuaded that there is “substantial ground for difference of opinion” as to its earlier conclusion that Plaintiff enjoys protections of the
FLSA. See 28 U.S.C. § 1292(b). Defendant correctly
observes that no circuit court has addressed the applicability of the FLSA to the recreational marijuana
industry. See (Doc. # 43 at 4.) Defendant also cites
district courts that have declined to extend various federal protections or benefits to parties in the recreational marijuana industry. See (id. at 4-5) (citing, e.g.,
In re Rent-Rite Super Kegs West Ltd., 484 B.R. 799, 809
(Bankr. D. Colo. 2012) (a party in violation of the Controlled Substances Act as a result of participating in
the recreational marijuana industry is not entitled to
federal bankruptcy protections)). In light of such case
law and the tension between state and federal marijuana policy, the Court believes there may be substantial
reason to question its ruling of law in its Order Denying Defendant’s Motion to Dismiss, though it nonetheless stands by its ruling therein.
Third, “an immediate appeal may materially advance the ultimate termination of the litigation.” See
28 U.S.C. § 1292(b). Should the Tenth Circuit accept
Defendant’s appeal and reverse this Court’s Order
Denying Defendant’s Motion to Dismiss, Plaintiff ’s
sole claim against Defendant would be dismissed. “That
is sufficient to advance materially the litigation, and

App. 21
therefore certification of the interlocutory appeal [is]
permissible.” See Reese v. BP Exploration (Alaska) Inc.,
643 F.3d 681, 688 (9th Cir. 2011).
Having satisfied the three conditions precedent of
28 U.S.C. § 1292(b), Defendant is entitled to a certification of appeal.
III.

CONCLUSION

For the foregoing reasons, it is ORDERED that
Defendant’s Motion for Certification for Appeal (Doc. #
43) is GRANTED.
DATED:
January 23, 2018

BY THE COURT:
/s/ Christine M. Arguello
CHRISTINE M. ARGUELLO
United States District Judge

App. 22
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 17-cv-01755-CMA-KMT
ROBERT KENNEY, individually and
on behalf of all others similarly situated,
Plaintiff,
v.
HELIX TCS, INC.,
Defendant.

ORDER DENYING
DEFENDANT’S MOTION TO DISMISS
(Filed Jan. 5, 2018)
This matter is before the Court on Defendant Helix TCS, Inc.’s Motion to Dismiss. (Doc. # 13.) Defendant argues that Plaintiff Robert Kenney’s claim
against it must be dismissed for want of jurisdiction
pursuant to Federal Rule of Civil Procedure 12(b)(1),
or alternatively, for failing to state claim pursuant to
Federal Rule of Civil Procedure 12(b)(6). (Id. at 1–2.)
For the reasons stated below, Defendant’s Motion to
Dismiss is denied.

App. 23
I. FACTUAL BACKGROUND
AND PROCEDURAL HISTORY
Defendant’s sole business purpose is to “provid[e]
security, inventory control, and compliance services to
the marijuana industry in Colorado.” (Doc. # 13 at 2.)
Between approximately February 2016 and April 2017,
Plaintiff worked for Defendant as a security guard,
alternatively referred to by Defendant as a “site supervisor.”1 (Doc. # 1 at 2.) Plaintiff ’s job duties included
“monitoring security cameras, patrolling assigned locations, investigating and documenting all facilityrelated incidents, and enforcing client, local, state, and
federal policies and regulations.” (Id. at 3.) Defendant
classified Plaintiff as an exempt employee under the
Fair Labor Standards Act (the “FLSA”), 29 U.S.C.
§§ 201–19, and paid him a salary. (Id.)
Plaintiff alleges that he and other similarly-situated security guards frequently performed non-exempt
job duties that were “routine” and “predetermined” by
Defendant or its clients and regularly worked in excess
of 40 hours per week. (Id.) Plaintiff contends that he
was not an exempt employee under any applicable exemption of the FLSA and is thus owed overtime compensation under 29 U.S.C. § 207(a). (Id.)
On July 20, 2017, Plaintiff initiated this action
against Defendant on behalf of himself and all others
1

In reviewing a motion to dismiss, the Court is bound to take
the well-pleaded factual allegations in the Complaint as true and
view them in the light most favorable to the nonmoving party.
Papasan v. Allain, 478 U.S. 265, 283 (1986).

App. 24
similarly situated2 under the collective action provisions
of the FLSA. (Id. at 2); see 29 U.S.C. § 216(b). He asserts
a single claim: willful failure to pay “overtime at rates
not less than one and one-half times the regular rate,”
in violation of 29 U.S.C. § 207(a). (Doc. # 1 at 5.) Plaintiff seeks recovery of unpaid overtime compensation,
liquidated damages, attorney’s fees, and costs. (Id. at
5–6.)
Defendant filed the Motion to Dismiss now before
the Court on September 13, 2017. (Doc. # 13.) Plaintiff
responded in opposition to the Motion to Dismiss on
October 2, 2017. (Doc. # 28.) Defendant replied on October 25, 2017 (Doc. # 34.)
II. LEGAL PRINCIPLES
GOVERNING A MOTION TO DISMISS
Defendant moves under Rule 12(b)(1) and Rule
12(b)(6) to dismiss Plaintiff ’s claim. (Doc. # 13 at 1.)
Where, as here, a defendant seeks dismissal under
Rule 12(b)(1) and Rule 12(b)(6) in the alternative, “the
court must decide first the 12(b)(1) motion for the
12(b)(6) challenge would be moot if the court lacked
subject matter jurisdiction.” Mounkes v. Conklin, 922
F. Supp. 1501, 1506 (D. Kan. 1996) (citing Moir v.
Greater Cleveland Reg’l Transit Auth., 895 F.2d 266,
269 (6th Cir. 1990)).
2

Plaintiff defines the class of similarly-situated workers as
“all security guards and/or site supervisors employed by Helix
TCS, Inc. during the past three (3) years who received a salary
and no overtime compensation.” (Doc. # 1 at 2.)

App. 25
Rule 12(b)(1) provides for challenges to a court’s
subject matter jurisdiction. Davis ex rel. Davis v. United
States, 343 F.3d 1282, 1294 (10th Cir. 2003). The
court’s task in resolving a Rule 12(b)(1) motion is a relatively limited one; it is only whether the court lacks
authority to adjudicate the matter. Glapion v. Castro,
79 F. Supp. 3d 1207, 1212 (D. Colo. 2015) (citing Castaneda v. INS, 23 F.3d 1576, 1580 (10th Cir. 1994)).
“The issue is not whether plaintiff will ultimately succeed on the merits.” Hanford Downwinders Coalition,
Inc. v. Dowdle, 841 F. Supp. 1050, 1057 (E.D. Wash.
1993). The burden of establishing subject matter jurisdiction is on the party asserting jurisdiction. Basso v.
Utah Power & Light Co., 495 F.2d 906, 909 (10th Cir.
1974).
Dismissal is appropriate under Rule 12(b)(6) if the
plaintiff fails to state a claim upon which relief can be
granted. To survive a motion to dismiss pursuant to
Rule 12(b)(6), “a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). Plausibility in this
context means that the plaintiff pled factual content
which allows “the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Id. The plausibility standard is not a probability requirement, “but it asks for more than a sheer
possibility that a defendant has acted unlawfully.” Id.

App. 26
III.

ANALYSIS

A. DEFENDANT’S JURSIDICTIONAL ARGUMENT
Defendant argues that the Court must dismiss
this case pursuant to Rule 12(b)(1) because the Court
lacks subject matter jurisdiction. (Doc. # 13 at 4–13.)
Defendant reasons that because Plaintiff is employed
in the marijuana industry, an industry “entirely forbidden” by the Federal Controlled Substances Act (the
“CSA”), 21 U.S.C. § 812, Plaintiff does not enjoy the
protections of the FLSA, and thus, the Court does not
have subject matter jurisdiction over Plaintiff ’s claim.
(Id.) According to Defendant, “[t]he protections of federal law . . . are simply unavailable to an individual or
business choosing to participate in an industry that is
criminalized under federal law.” (Id. at 12.)
At the outset, the Court observes that Defendant
appears to be confused about the concept of jurisdiction. Its argument does not concern jurisdiction at all.
Plaintiff claims that Defendant violated a federal statute—the FLSA—and this Court therefore has subject
matter jurisdiction (and specifically, federal question
jurisdiction) over the case. See Breuer v. Jim’s Concrete
of Brevard, Inc., 538 U.S. 691, 695 (2003) (“The FLSA
provides that an action ‘may be maintained . . . in any
Federal or State court of competent jurisdiction,’ 29
U.S.C. §216(b), and the [federal] district courts would
in any event have original jurisdiction over FLSA
claims under 28 U.S.C. § 1331 . . . and § 1337(a)”).
Defendant’s argument actually goes to the sufficiency of Plaintiff ’s claim. As Plaintiff observes (Doc.

App. 27
# 28 at 3–5), Defendant is actually disputing the legal
sufficiency of Plaintiff ’s FLSA claim. See Arbaugh v.
Y&H Corp., 546 U.S. 500, 516 (2006) (holding that a
statute’s definitional requirement of who qualifies as
an “employer” “is an element of a plaintiff ’s claim for
relief, not a jurisdictional issue”); Fuqua v. Celebrity
Enter., Inc., No. 12-cv-0208-WJM-KMT, 2012 WL 4088857,
*2 (D. Colo. Sept. 17, 2012) (denying employer’s Rule
12(b)(1) motion to dismiss in an FLSA collective action
where employer argued plaintiff was not a protected
employee). Accordingly, Defendant’s argument should
be considered an argument made pursuant to Rule
12(b)(6). Greenwood v. Green Leaf Lab LLC, No. 3:17cv-00515-PK, 2017 WL 3391671, *1 (D. Or. July 13,
2017), adopted at 2017 WL 3391671 (D. Or. Aug. 7,
2017) (where defendant argued that the court lacked
jurisdiction to hear plaintiff ’s FLSA claim because the
business was illegal under federal law, finding that defendant was challenging the legal sufficiency of plaintiff ’s FLSA claim and treating defendant’s motion to
dismiss as being brought under Rule 12(b)(6)).
Defendant’s argument fails. Defendant does not
cite to any authority adopting its novel theory of jurisdiction. However, ample authority expressly rejecting
Defendant’s argument exists. In Greenwood v. Green
Leaf Lab LLC, for example, the District of Oregon rejected Defendant’s argument in a nearly-identical case.
2017 WL 3391671 at *1. There, the plaintiff worked for
the defendant marijuana-testing laboratory as a courier and brought FLSA claims against the defendant,
alleging that the defendant failed to pay him and

App. 28
others similarly-situated minimum wage or overtime
pay. Id. The defendant-employer moved to dismiss the
plaintiff ’s FLSA claims for lack of subject matter jurisdiction, arguing that FLSA claims were barred by the
CSA. Id. The court refused to accept the defendant’s
argument, concluding that “any possible violations of
the [CSA] are not relevant to whether the FLSA’s protections apply” to the plaintiff. Id. at *3.
Apart from the context of the FLSA, case law is
clear that employers are not excused from complying
with federal laws, such as the FLSA, just because their
business practices may violate federal law. E.g., United
States v. Sullivan, 274 U.S. 259, 263 (1927) (where defendant’s business violated federal prohibition laws,
holding that there was no reason “why the fact that a
business is unlawful should exempt it from paying the
taxes that if lawful it would have to pay”); Donovan v.
Burgett Greenhouses, Inc., 759 F.2d 1483, 1485 (10th
Cir. 1985) (finding FLSA violations where defendant
employed illegal aliens in violation of federal law).
For these reasons and those put forth by Plaintiff
in his Response to the Motion to Dismiss3 (Doc. # 28),
the Court has jurisdiction over the instant action and
squarely rejects Defendant’s argument otherwise.

3

Plaintiff argues at length that the cases cited in Defendant’s Motion to Dismiss are inapposite. (Doc. # 28 at 8–10.) The
Court agrees and incorporates Plaintiff ’s analysis by reference.

App. 29
B. DEFENDANT’S NON-EXEMPT EMPLOYEE
ARGUMENT
Alternatively, Defendant moves to dismiss Plaintiff ’s claim pursuant to Rule 12(b)(6) on the basis that
Plaintiff “fails to sufficiently allege the basis” for his
assertion “that he was a non-exempt employee subject
to relief.” (Doc. # 13 at 14–15.) Noting that the FLSA
does not apply to an employee “employed in a bona fide
executive, administrative, or professional capacity,” 29
U.S.C. § 213(a)(1), Defendant contends that Plaintiff ’s
Complaint “simply cherry picks certain job duties,”
even though Plaintiff ’s “essential job functions and duties are to manage [Defendant’s] site employees.” (Doc.
# 13 at 14.) Defendant argues that Plaintiff ’s factual
pleadings are “not sufficient” to establish that he was
a non-exempt employee with a right to relief under the
FLSA. (Id.)
The Court is not persuaded. It is Defendant’s burden to prove that a statutory exemption applies to
Plaintiff. See Lederman v. Frontier Fire Protection, Inc.,
685 F.3d 1151, 1157–58 (10th Cir. 2012). Plaintiff need
not plead facts establishing that he is a non-exempt
employee because an exemption under the FLSA is an
affirmative defense for which the employer bears the
burden of proof. See Dejesus v. HF Mgmt. Serv., LLC,
726 F.3d 85, 91 n.7 (2nd Cir. 2013).

App. 30
IV.

CONCLUSION

In accordance with the foregoing, it is ORDERED
that Defendant’s Motion to Dismiss (Doc. # 13) is DENIED.
DATED:
January 5, 2018

BY THE COURT:
/s/ Christine M. Arguello
CHRISTINE M. ARGUELLO
United States District Judge

App. 31
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------

ROBERT KENNEY, individually
and on behalf of all others
similarly situated,
Plaintiff - Appellee,

No. 18-1105

v.
HELIX TCS, INC.,
Defendant - Appellant.
-------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------

(Filed Jan. 31, 2020)
Before HARTZ, SEYMOUR and EID, Circuit Judges.
-------------------------------------------------------------------------------------------------------------

This matter is before the court on Appellant’s Petition for Rehearing En Banc. The petition for rehearing is denied. The petition for rehearing en banc was
transmitted to all judges of the court who are in regular active service. As no member of the panel and no
judge in regular active service requested that the court

App. 32
be polled, the petition for rehearing en banc is denied
pursuant to Fed. R. App. P. 35(f ).
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

App. 33
29 U.S.C. § 203(a)-(e)
As used in this chapter –
(a) “Person” means an individual, partnership, association, corporation, business trust, legal representative, or any organized group of persons.
(b) “Commerce” means trade, commerce, transportation, transmission, or communication among the several States or between any State and any place outside
thereof.
(c) “State” means any State of the United States or
the District of Columbia or any Territory or possession
of the United States.
(d) “Employer” includes any person acting directly
or indirectly in the interest of an employer in relation to an employee and includes a public agency, but
does not include any labor organization (other than
when acting as an employer) or anyone acting in the
capacity of officer or agent of such labor organization.
(e)(1) Except as provided in paragraphs (2), (3), and
(4), the term “employee” means any individual employed by an employer.
(2) In the case of an individual employed by a public
agency, such term means –
(A) any individual employed by the Government
of the United States –

App. 34
(i) as a civilian in the military departments
(as defined in section 102 of Title 5),
(ii) in any executive agency (as defined in
section 105 of such title),
(iii) in any unit of the judicial branch of the
Government which has positions in the competitive service,
(iv) in a nonappropriated fund instrumentality under the jurisdiction of the Armed
Forces,
(v)
(vi)

in the Library of Congress, or
the1 Government Publishing Office;

(B) any individual employed by the United
States Postal Service or the Postal Regulatory
Commission; and
(C) any individual employed by a State, political
subdivision of a State, or an interstate governmental agency, other than such an individual –
(i) who is not subject to the civil service laws
of the State, political subdivision, or agency
which employs him; and
(ii)

who –
(I) holds a public elective office of that
State, political subdivision, or agency,
(II) is selected by the holder of such an
office to be a member of his personal staff,
(III) is appointed by such an officeholder to serve on a policymaking level,

App. 35
(IV) is an immediate adviser to such an
officeholder with respect to the constitutional or legal powers of his office, or
(V) is an employee in the legislative
branch or legislative body of that State,
political subdivision, or agency and is not
employed by the legislative library of
such State, political subdivision, or
agency.
(3) For purposes of subsection (u), such term does not
include any individual employed by an employer engaged in agriculture if such individual is the parent,
spouse, child, or other member of the employer’s immediate family.
(4)(A) The term “employee” does not include any individual who volunteers to perform services for a public agency which is a State, a political subdivision of a
State, or an interstate governmental agency, if –
(i) the individual receives no compensation or is
paid expenses, reasonable benefits, or a nominal
fee to perform the services for which the individual volunteered; and
(ii) such services are not the same type of services which the individual is employed to perform
for such public agency.
(B) An employee of a public agency which is a State,
political subdivision of a State, or an interstate governmental agency may volunteer to perform services
for any other State, political subdivision, or interstate governmental agency, including a State, political

App. 36
subdivision or agency with which the employing State,
political subdivision, or agency has a mutual aid agreement.
(5) The term “employee” does not include individuals
who volunteer their services solely for humanitarian
purposes to private non-profit food banks and who receive from the food banks groceries.

App. 37
29 U.S.C. § 207(a)
(a) Employees engaged in interstate commerce;
additional applicability to employees pursuant
to subsequent amendatory provisions
(1) Except as otherwise provided in this section, no
employer shall employ any of his employees who in any
workweek is engaged in commerce or in the production
of goods for commerce, or is employed in an enterprise
engaged in commerce or in the production of goods for
commerce, for a workweek longer than forty hours unless such employee receives compensation for his employment in excess of the hours above specified at a
rate not less than one and one-half times the regular
rate at which he is employed.
(2) No employer shall employ any of his employees
who in any workweek is engaged in commerce or in the
production of goods for commerce, or is employed in an
enterprise engaged in commerce or in the production
of goods for commerce, and who in such workweek is
brought within the purview of this subsection by the
amendments made to this chapter by the Fair Labor
Standards Amendments of 1966 –
(A) for a workweek longer than forty-four hours
during the first year from the effective date of the
Fair Labor Standards Amendments of 1966,
(B) for a workweek longer than forty-two hours
during the second year from such date, or
(C) for a workweek longer than forty hours after
the expiration of the second year from such date,

App. 38
unless such employee receives compensation for his
employment in excess of the hours above specified at a
rate not less than one and one-half times the regular
rate at which he is employed.

App. 39
29 U.S.C. § 213 (a)-(b)
(a) Minimum wage and maximum hour requirements
The provisions of sections 206 (except subsection (d) in
the case of paragraph (1) of this subsection) and 207 of
this title shall not apply with respect to –
(1) any employee employed in a bona fide executive, administrative, or professional capacity (including any employee employed in the capacity of
academic administrative personnel or teacher in
elementary or secondary schools), or in the capacity of outside salesman (as such terms are defined
and delimited from time to time by regulations of
the Secretary, subject to the provisions of subchapter II of chapter 5 of Title 5, except that an employee of a retail or service establishment shall not
be excluded from the definition of employee employed in a bona fide executive or administrative
capacity because of the number of hours in his
workweek which he devotes to activities not directly or closely related to the performance of executive or administrative activities, if less than 40
per centum of his hours worked in the workweek
are devoted to such activities); or
(2) Repealed. Pub.L. 101-157, § 3(c)(1), Nov. 17,
1989, 103 Stat. 939
(3) any employee employed by an establishment
which is an amusement or recreational establishment, organized camp, or religious or non-profit
educational conference center, if (A) it does not operate for more than seven months in any calendar
year, or (B) during the preceding calendar year, its

App. 40
average receipts for any six months of such year
were not more than 33 ⅓ per centum of its average
receipts for the other six months of such year, except that the exemption from sections 206 and 207
of this title provided by this paragraph does not
apply with respect to any employee of a private entity engaged in providing services or facilities
(other than, in the case of the exemption from section 206 of this title, a private entity engaged in
providing services and facilities directly related to
skiing) in a national park or a national forest, or
on land in the National Wildlife Refuge System,
under a contract with the Secretary of the Interior
or the Secretary of Agriculture; or
(4) Repealed. Pub.L. 101-157, § 3(c)(1), Nov. 17,
1989, 103 Stat. 939
(5) any employee employed in the catching, taking, propagating, harvesting, cultivating, or farming of any kind of fish, shellfish, crustacea,
sponges, seaweeds, or other aquatic forms of animal and vegetable life, or in the first processing,
canning or packing such marine products at sea as
an incident to, or in conjunction with, such fishing
operations, including the going to and returning
from work and loading and unloading when performed by any such employee; or
(6) any employee employed in agriculture (A) if
such employee is employed by an employer who
did not, during any calendar quarter during the
preceding calendar year, use more than five hundred man-days of agricultural labor, (B) if such
employee is the parent, spouse, child, or other
member of his employer’s immediate family, (C) if

App. 41
such employee (i) is employed as a hand harvest
laborer and is paid on a piece rate basis in an operation which has been, and is customarily and
generally recognized as having been, paid on a
piece rate basis in the region of employment, (ii)
commutes daily from his permanent residence to
the farm on which he is so employed, and (iii) has
been employed in agriculture less than thirteen
weeks during the preceding calendar year, (D) if
such employee (other than an employee described
in clause (C) of this subsection) (i) is sixteen years
of age or under and is employed as a hand harvest
laborer, is paid on a piece rate basis in an operation which has been, and is customarily and generally recognized as having been, paid on a piece
rate basis in the region of employment, (ii) is employed on the same farm as his parent or person
standing in the place of his parent, and (iii) is
paid at the same piece rate as employees over age
sixteen are paid on the same farm, or (E) if such
employee is principally engaged in the range production of livestock; or
(7) any employee to the extent that such employee is exempted by regulations, order, or certificate of the Secretary issued under section 214 of
this title; or
(8) any employee employed in connection with
the publication of any weekly, semiweekly, or daily
newspaper with a circulation of less than four
thousand the major part of which circulation is
within the county where published or counties
contiguous thereto; or

App. 42
(9) Repealed. Pub.L. 93-259, § 23(a)(1), Apr. 8,
1974, 88 Stat. 69
(10) any switchboard operator employed by an
independently owned public telephone company
which has not more than seven hundred and fifty
stations; or
(11) Repealed. Pub.L. 93-259, § 10(a), Apr. 8,
1974, 88 Stat. 63
(12) any employee employed as a seaman on a
vessel other than an American vessel; or
(13), (14) Repealed. Pub.L. 93-259, §§ 9(b)(1),
23(b)(1), Apr. 8, 1974, 88 Stat. 63, 69
(15) any employee employed on a casual basis in
domestic service employment to provide babysitting services or any employee employed in domestic service employment to provide companionship
services for individuals who (because of age or infirmity) are unable to care for themselves (as such
terms are defined and delimited by regulations of
the Secretary); or
(16) a criminal investigator who is paid availability pay under section 5545a of Title 5;
(17) any employee who is a computer systems
analyst, computer programmer, software engineer,
or other similarly skilled worker, whose primary
duty is –
(A) the application of systems analysis techniques and procedures, including consulting
with users, to determine hardware, software,
or system functional specifications;

App. 43
(B) the design, development, documentation, analysis, creation, testing, or modification of computer systems or programs,
including prototypes, based on and related to
user or system design specifications;
(C) the design, documentation, testing, creation, or modification of computer programs
related to machine operating systems; or
(D) a combination of duties described in
subparagraphs (A), (B), and (C) the performance of which requires the same level of
skills, and who, in the case of an employee
who is compensated on an hourly basis, is
compensated at a rate of not less than $27.63
an hour; or
(18) any employee who is a border patrol agent,
as defined in section 5550(a) of Title 5; or
(19) any employee employed to play baseball
who is compensated pursuant to a contract that
provides for a weekly salary for services performed
during the league’s championship season (but not
spring training or the off season) at a rate that is
not less than a weekly salary equal to the minimum wage under section 206(a) of this title for a
workweek of 40 hours, irrespective of the number
of hours the employee devotes to baseball related
activities.
(b)

Maximum hour requirements

The provisions of section 207 of this title shall not apply with respect to –

App. 44
(1) any employee with respect to whom the Secretary of Transportation has power to establish
qualifications and maximum hours of service pursuant to the provisions of section 31502 of Title 49;
or
(2) any employee of an employer engaged in the
operation of a rail carrier subject to part A of subtitle IV of Title 49; or
(3) any employee of a carrier by air subject to the
provisions of Title II of the Railway Labor Act; or
(4) Repealed. Pub.L. 93-259, § 11(c), Apr. 8, 1974,
88 Stat. 64
(5) any individual employed as an outside buyer
of poultry, eggs, cream, or milk, in their raw or natural state; or
(6)

any employee employed as a seaman; or

(7) Repealed. Pub.L. 93-259, § 21(b)(3), Apr. 8,
1974, 88 Stat. 68
(8) Repealed. Pub.L. 95-151, § 14(b), Nov. 1,
1977, 91 Stat. 1252
(9) any employee employed as an announcer,
news editor, or chief engineer by a radio or television station the major studio of which is located
(A) in a city or town of one hundred thousand population or less, according to the latest available decennial census figures as compiled by the Bureau
of the Census, except where such city or town is
part of a standard metropolitan statistical area, as
defined and designated by the Office of Management and Budget, which has a total population in
excess of one hundred thousand, or (B) in a city or

App. 45
town of twenty-five thousand population or less,
which is part of such an area but is at least 40 airline miles from the principal city in such area; or
(10)(A) any salesman, partsman, or mechanic
primarily engaged in selling or servicing automobiles, trucks, or farm implements, if he is employed
by a nonmanufacturing establishment primarily
engaged in the business of selling such vehicles or
implements to ultimate purchasers; or
(B) any salesman primarily engaged in selling
trailers, boats, or aircraft, if he is employed by a
nonmanufacturing establishment primarily engaged in the business of selling trailers, boats, or
aircraft to ultimate purchasers; or
(11) any employee employed as a driver or
driver’s helper making local deliveries, who is
compensated for such employment on the basis of
trip rates, or other delivery payment plan, if the
Secretary shall find that such plan has the general
purpose and effect of reducing hours worked by
such employees to, or below, the maximum workweek applicable to them under section 207(a) of
this title; or
(12) any employee employed in agriculture or
in connection with the operation or maintenance
of ditches, canals, reservoirs, or waterways, not
owned or operated for profit, or operated on a
sharecrop basis, and which are used exclusively
for supply and storing of water, at least 90 percent
of which was ultimately delivered for agricultural
purposes during the preceding calendar year; or

App. 46
(13) any employee with respect to his employment in agriculture by a farmer, notwithstanding
other employment of such employee in connection
with livestock auction operations in which such
farmer is engaged as an adjunct to the raising of
livestock, either on his own account or in conjunction with other farmers, if such employee (A) is
primarily employed during his workweek in agriculture by such farmer, and (B) is paid for his
employment in connection with such livestock
auction operations at a wage rate not less than
that prescribed by section 206(a)(1) of this title; or
(14) any employee employed within the area of
production (as defined by the Secretary) by an establishment commonly recognized as a country elevator, including such an establishment which
sells products and services used in the operation
of a farm, if no more than five employees are employed in the establishment in such operations; or
(15) any employee engaged in the processing of
maple sap into sugar (other than refined sugar) or
syrup; or
(16) any employee engaged (A) in the transportation and preparation for transportation of fruits
or vegetables, whether or not performed by the
farmer, from the farm to a place of first processing
or first marketing within the same State, or (B) in
transportation, whether or not performed by the
farmer, between the farm and any point within the
same State of persons employed or to be employed
in the harvesting of fruits or vegetables; or
(17) any driver employed by an employer engaged in the business of operating taxicabs; or

App. 47
(18), (19) Repealed. Pub.L. 93-259, §§ 15(c),
16(b), Apr. 8, 1974, 88 Stat. 65
(20) any employee of a public agency who in any
workweek is employed in fire protection activities
or any employee of a public agency who in any
workweek is employed in law enforcement activities (including security personnel in correctional
institutions), if the public agency employs during
the workweek less than 5 employees in fire protection or law enforcement activities, as the case may
be; or
(21) any employee who is employed in domestic
service in a household and who resides in such
household; or
(22) Repealed. Pub.L. 95-151, § 5, Nov. 1, 1977,
91 Stat. 1249
(23) Repealed. Pub.L. 93-259, § 10(b)(3), Apr. 8,
1974, 88 Stat. 64
(24) any employee who is employed with his
spouse by a nonprofit educational institution to
serve as the parents of children –
(A) who are orphans or one of whose natural
parents is deceased, or
(B) who are enrolled in such institution and
reside in residential facilities of the institution, while such children are in residence at
such institution, if such employee and his
spouse reside in such facilities, receive, without cost, board and lodging from such Institution, and are together compensated, on a cash

App. 48
basis, at an annual rate of not less than
$10,000; or
(25), (26) Repealed. Pub.L. 95-151, §§ 6(a), 7(a),
Nov. 1, 1977, 91 Stat. 1249, 1250
(27) any employee employed by an establishment which is a motion picture theater; or
(28) any employee employed in planting or tending trees, cruising, surveying, or felling timber, or
in preparing or transporting logs or other forestry
products to the mill, processing plant, railroad, or
other transportation terminal, if the number of
employees employed by his employer in such forestry or lumbering operations does not exceed
eight;
(29) any employee of an amusement or recreational establishment located in a national park or
national forest or on land in the National Wildlife
Refuge System if such employee (A) is an employee of a private entity engaged in providing services or facilities in a national park or national
forest, or on land in the National Wildlife Refuge
System, under a contract with the Secretary of the
Interior or the Secretary of Agriculture, and (B) receives compensation for employment in excess of
fifty-six hours in any workweek at a rate not less
than one and one-half times the regular rate at
which he is employed; or
(30) a criminal investigator who is paid availability pay under section 5545a of Title 5.

App. 49
21 U.S.C. § 812(a)-(b)(1)
(a)

Establishment

There are established five schedules of controlled substances, to be known as schedules I, II, III, IV, and V.
Such schedules shall initially consist of the substances
listed in this section. The schedules established by this
section shall be updated and republished on a semiannual basis during the two-year period beginning one
year after October 27, 1970, and shall be updated and
republished on an annual basis thereafter.
(b)

Placement on schedules; findings required

Except where control is required by United States obligations under an international treaty, convention, or
protocol, in effect on October 27, 1970, and except in
the case of an immediate precursor, a drug or other
substance may not be placed in any schedule unless
the findings required for such schedule are made with
respect to such drug or other substance. The findings
required for each of the schedules are as follows:
(1)

Schedule I –

(A) The drug or other substance has a high potential for abuse.
(B) The drug or other substance has no currently
accepted medical use in treatment in the United
States.
(C) There is a lack of accepted safety for use of the
drug or other substance under medical supervision.

App. 50
21 U.S.C.A. § 841(a)
(a)

Unlawful acts

Except as authorized by this subchapter, it shall be unlawful for any person knowingly or intentionally –
(1) to manufacture, distribute, or dispense, or
possess with intent to manufacture, distribute, or
dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess
with intent to distribute or dispense, a counterfeit
substance.

App. 51
18 U.S.C.A. § 2
(a) Whoever commits an offense against the United
States or aids, abets, counsels, commands, induces or
procures its commission, is punishable as a principal.
(b) Whoever willfully causes an act to be done which
if directly performed by him or another would be an
offense against the United States, is punishable as a
principal.

App. 52
13 C.F.R. § 120.110
The following types of businesses are ineligible:
(a) Non-profit businesses (for-profit subsidiaries are
eligible);
(b) Financial businesses primarily engaged in the
business of lending, such as banks, finance companies,
and factors (pawn shops, although engaged in lending,
may qualify in some circumstances);
(c) Passive businesses owned by developers and landlords that do not actively use or occupy the assets acquired or improved with the loan proceeds (except
Eligible Passive Companies under § 120.111);
(d)

Life insurance companies;

(e) Businesses located in a foreign country (businesses in the U.S. owned by aliens may qualify);
(f )

Pyramid sale distribution plans;

(g) Businesses deriving more than one-third of gross
annual revenue from legal gambling activities;
(h)

Businesses engaged in any illegal activity;

(i) Private clubs and businesses which limit the number of memberships for reasons other than capacity;
(j) Government-owned entities (except for businesses
owned or controlled by a Native American tribe);
(k) Businesses principally engaged in teaching, instructing, counseling or indoctrinating religion or religious beliefs, whether in a religious or secular setting;

App. 53
(l)

[Reserved by 82 FR 39502]

(m) Loan packagers earning more than one third of
their gross annual revenue from packaging SBA loans;
(n) Businesses with an Associate who is incarcerated,
on probation, on parole, or has been indicted for a felony or a crime of moral turpitude;
(o) Businesses in which the Lender or CDC, or any of
its Associates owns an equity interest;
(p)

Businesses which:
(1) Present live performances of a prurient sexual nature; or
(2) Derive directly or indirectly more than de
minimis gross revenue through the sale of products or services, or the presentation of any depictions or displays, of a prurient sexual nature;

(q) Unless waived by SBA for good cause, businesses
that have previously defaulted on a Federal loan or
Federally assisted financing, resulting in the Federal
government or any of its agencies or Departments sustaining a loss in any of its programs, and businesses
owned or controlled by an applicant or any of its Associates which previously owned, operated, or controlled
a business which defaulted on a Federal loan (or guaranteed a loan which was defaulted) and caused the
Federal government or any of its agencies or Departments to sustain a loss in any of its programs. For purposes of this section, a compromise agreement shall
also be considered a loss;

App. 54
(r) Businesses primarily engaged in political or lobbying activities; and
(s)

Speculative businesses (such as oil wildcatting).

